<html>
<title> - CHALLENGES AND OPPORTUNITIES IN THE 5 GHZ SPECTRUM BAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 

        CHALLENGES AND OPPORTUNITIES IN THE 5 GHZ SPECTRUM BAND

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-93


      Printed for the use of the Committee on Energy and Commerce
                       energycommerce.house.gov

                                 ------

                       U.S. GOVERNMENT PRINTING OFFICE

88-051                       WASHINGTON : 2014
_____________________________________________________________________

       For sale by the Superintendent of Documents, U.S. Government
     Printing Office Internet: bookstore.gpo.gov Phone: toll free
        (866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2104
                  Mail: Stop IDDC, Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
LEE TERRY, Nebraska                  DORIS O. MATSUI, California
MIKE ROGERS, Michigan                BRUCE L. BRALEY, Iowa
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             BEN RAY LUJAN, New Mexico
LEONARD LANCE, New Jersey            JOHN D. DINGELL, Michigan
BRETT GUTHRIE, Kentucky              FRANK PALLONE, Jr., New Jersey
CORY GARDNER, Colorado               BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California, ex
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio


                             C O N T E N T S

                              ----------
                                                                   Page
Hon. Henry A. Waxman, a Representative in Congress from the State
  of California, opening statement...............................     1
Hon. Greg Walden, a Representative in Congress from the State of
  Oregon, opening statement......................................     3
    Prepared statement...........................................     4
Hon. Robert E. Latta, a Representative in Congress from the State
  of Ohio, opening statement.....................................     5
Hon. Anna G. Eshoo, a Representative in Congress from the State
  of California, opening statement...............................     6
Hon. Leonard Lance, a Representative in Congress from the State
  of New Jersey, prepared statement..............................    64

                               Witnesses

Julius Knapp, Chief, Office of Engineering and Technology,
  Federal Communications Commission..............................     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................    66
John Kenney, Principal Research Manager, Toyota Info Technology
  Center.........................................................    14
    Prepared statement...........................................    16
    Answers to submitted questions...............................    68
Tom Nagel, Senior Vice President, Business Development, Comcast..    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................    70
Bob Friday, Vice President and Chief Technology Officer, Cisco...    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................    74


        CHALLENGES AND OPPORTUNITIES IN THE 5 GHZ SPECTRUM BAND

                              ----------


                      WEDNESDAY, NOVEMBER 13, 2013

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:27 p.m., in
room 2123 of the Rayburn House Office Building, Hon. Greg
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus,
Terry, Blackburn, Scalise, Lance, Guthrie, Long, Ellmers,
Eshoo, Braley, Lujan, Dingell, Butterfield, and Waxman (ex
officio).
    Staff present: Gary Andres, Staff Director; Ray Baum,
Senior Policy Advisor/Director of Coalitions; Matt Bravo,
Professional Staff Member; Andy Duberstein, Deputy Press
Secretary; Kelsey Guyselman, Counsel, Telecom; Grace Koh,
Counsel, Telecom; Gib Mullan, Chief Counsel, CMT; David Redl,
Counsel, Telecom; Charlotte Savercool, Legislative Coordinator;
Tom Wilbur, Digital Media Advisor; Roger Sherman, Democratic
Chief Counsel; Shawn Chang, Democratic Chief Counsel,
Communications and Technology; Margaret McCarthy, Democratic
Professional Staff Member; Kara van Stralen, Democratic Policy
Analyst; and Patrick Donovan, Democratic FCC Detailee.
    Mr. Walden. I am going to call to order the Subcommittee on
Communications and Technology for our hearing on ``Challenges
and Opportunities of the 5 Gigahertz Spectrum Band.'' With
unanimous consent, Mr. Waxman has to be down at the White
House. Without objection, I would like to start and allow him
to give his opening statement as a courtesy to the former
chairman, unless anybody wants to object or--I didn't think so.
So we will start. I know it is out of protocol and all, but we
actually try and get along here from time to time. So I would
yield to Mr. Waxman and allow him to give his statement since
he has to depart.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. I thank you and Ms.
Eshoo for your courtesy in allowing me to go forward. And I
thank my other colleagues that are here for not objecting. I
appreciate we are holding this hearing on the promises and
challenges of freeing up additional spectrum in the 5 gigahertz
band for next generation Wi-fi services.
    Public Safety and Spectrum Act of 2012 contained a small
but important revision requiring NTIA and the FCC to study and
open up additional spectrum for unlicensed services in the 5
gigahertz band. Many members of this committee, including
Ranking Member Eshoo and Congresswoman Matsui, worked hard to
ensure this provision was included in the final legislation.
And because of these efforts, superfast unlicensed services
known as gigabit Wi-fi are closer than ever to becoming a
reality. We know that unlicensed spectrum has been an
incredible economic success story. The development of Wi-fi
could not have happened without it. But as existing unlicensed
bands become increasingly congested, we must open up additional
frequencies for Wi-fi services to meet skyrocketing consumer
demand. And the potential for delivering unprecedented data
speed over gigabit Wi-fi networks promises to transform the 5
gigahertz band into a test bed for breakthroughs in innovation.
    Unlicensed spectrum is essential to our Nation's wireless
broadband ecosystem in unlocking the potential of the 5
gigahertz band is critical to maintaining our global leadership
in mobile broadband. Making more Wi-fi spectrum available does
not come without challenges.
    As a threshold matter, we must ensure incumbent systems in
the band, whether they are operated by federal or commercial
users, are fully protected from harmful interference. In
particular, the lifesaving potential of state of the art driver
warning systems must not be undermined. We are in the early
stage in opening up the 5 gigahertz band, and I believe any
process going forward must be fair, transparent and driven by
engineering. As I stated last year, the Administration should
continue to pursue an all of the above approach to make more
spectrum available for commercial mobile broadband services.
This approach includes opening up underutilized spectrum for
sharing. In an increasingly crowded spectrum world, spectrum
sharing shall be the new normal, not the exception. All
stakeholders should work together to develop sound technical
solutions to make this possible.
    I would like to welcome our impressive panel of experts.
Mr. Knapp, welcome back to our committee. We have always
appreciated your efforts to explain highly technical issues in
language policymakers can understand most of the time. And I
know you will help us again today. I look forward to hearing
from all of our panel of experts.
    Finally, I would like to take a moment, a personal
privilege to acknowledge Roger Sherman, as today's hearing will
be the last he will participate in as a member of our committee
staff. Members of the committee know Roger not only for his
deep expertise on telecommunications matters before this
subcommittee, but also his wise guidance as Democratic Chief
Counsel. Roger's dedication and knowledge and pragmatism truly
exemplify the best of public service. Fortunately, Roger will
still work closely with us in his new role as a Wireless Bureau
Chief of the Federal Communications Commission. In that
capacity, he will play an instrumental role in ensuring the
success of the upcoming spectrum auctions, including the
broadcast incentive auction. This is perhaps the FCC's most
critical responsibility in the coming years at FCC. Chairman
Wheeler couldn't have picked a better person for the job. I
know others may want to comment on his leaving us as well. I
hope everyone will join me in congratulating Roger on this new
opportunity, and we wish him all the success. I have 39
seconds. I am going to yield to Ms. Eshoo.
    Ms. Eshoo. Or I will use my time when you acknowledge me.
    Mr. Waxman. OK. Good.
    Ms. Eshoo. Thank you.
    Mr. Waxman. Thank you, both.
    Ms. Eshoo. Thank you.
    Mr. Walden. The gentleman yields back his time. I want to
join the gentleman in honoring Roger and thanking him for his
many years of service here on the committee and for the people
of America, and your continued service. Let the record show, I
already have a draft letter to you in your new role. And, you
know, it has a couple of minor things I am sure you can fix.
But we are delighted that you are going to stay part of the
public process. And we welcome you in your new role. We regret
you leaving here, but we wish you God speed and great fortune
and safety.
    Mr. Waxman. And we want your responses by 9:00 a.m.
tomorrow morning.
    Mr. Walden. Mr. Waxman, that would be 8:00. Yes, that is
probably on time.
    Mr. Waxman. OK.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. All right. We will get back into regular order
here, and I will give my opening remarks.
    The subcommittee meets today to continue our oversight of
the FCC's progress in implementing the spectrum provisions
Congress passed last year as part of that Middle Class Tax
Relief and Job Creation Act of 2012. While much has been made
of the incentive auctions, and those first of their kind
auctions are incredibly important, we also took concrete steps
to improve access to spectrum for unlicensed technologies like
Wi-fi in the 5 gigahertz band. Today, we will hear from
witnesses that could give us an update on their progress in
implementing those sections and what challenges exist to
increased unlicensed use.
    Unlicensed wireless technologies have become an
indispensible part of our information infrastructure in the
United States. As a complement to both our residential and
business wired internet connections, as well as a component of
our mobile wireless devices, Wi-fi, perhaps the most prolific
use of unlicensed spectrum, has spread from its humble origins
in a technical community to near ubiquity. It now helps farmers
in rural America allocate water and fertilizer to meet the
exact specific needs of crops, thus increasing productivity and
reducing costs. It has allowed business of all kinds to more
efficiently manage inventories, distribution and manufacturing
processing, thus increasing productivity. It allows consumers
to communicate on the go and to watch the video services they
want, where and when they want to.
    Unlicensed spectrum technologies have allowed all of us to
use devices that have made our lives safer and more convenient,
connected, informative and entertaining. It has and will
continue to help created billions of dollars of economic growth
and hundreds of thousands of jobs across all of America.
    Spectrum provisions that were signed into law last year had
their beginnings in this subcommittee. We instructed the NTIA
and the FCC to begin the process of bringing additional
spectrum into the unlicensed marketplace by first asking them
to assess the feasibility of doing so without causing harmful
interference to licensed operators already occupying the band.
Just as we had a central focus on ensuring that broadcaster
remained a viable service after the incentive auction, so too
did we have a focus on ensuring that new unlicensed uses were
in addition to and not interfering with existing licensed
services. The 5 gigahertz ecosystem is teeming with existing
uses from critical government radar systems to commercial
satellites. There are a host of licensed services that are
already deployed in this band.
    Today, we will also hear from one of the promising but
unrealized license uses of this band, intelligent
transportation systems for smarter, safer vehicles. However, it
is important to also note that 5 gigahertz is also currently
being used for Wi-fi and other unlicensed uses. Thanks to
technical rules that limit power and require certain mitigation
technologies, these systems are currently meeting our licensed
and unlicensed needs without interfering with one another.
    So we are looking forward to hearing from our very
qualified panel of witnesses this afternoon on both the
potential that this spectrum holds to fuel the next generation
of unlicensed wireless technologies and benefits they would
bring, but also the technical and economic challenges to making
the most of this band. I think I speak for many of my
colleagues when I say that we are excited to see the fruits of
this subcommittee's labor come to fruition in the form of
faster and more abundant Wi-fi, but not at the expense of
existing licensed services. These services can coexist. And
thanks to the hard work of the industries and agencies
represented by our witnesses today, we don't have to choose
between better internet access and safer cars. So I thank you
for being here. And I look forward to your testimony.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    The subcommittee meets today to continue our oversight of
the FCC's progress in implementing the spectrum provisions
Congress passed last year as part of the Middle Class Tax
Relief and Job Creation Act of 2012. While much has been made
of the incentive auctions--and those first-of-their-kind
auctions are incredibly important--we also took concrete steps
to improve access to spectrum for unlicensed technologies, like
Wi-fi, in the 5 GHz band. Today, we will hear from witnesses
that can give us an update on their progress in implementing
those sections and what challenges exist to increased
unlicensed use.
    Unlicensed wireless technologies have become an
indispensable part of our information infrastructure in
America. As a compliment to both our residential and business
wired Internet connections as well as a component of our mobile
wireless devices, Wi-fi, perhaps the most prolific use of
unlicensed spectrum, has spread from its humble origins in the
technical community to near ubiquity.
    It now helps farmers in rural America allocate water and
fertilizer to meet the exact needs of a specific crop thus
increasing productivity and reducing cost. It has allowed
businesses of all kinds to more efficiently manage inventories,
distribution and manufacturing processes thus increasing
productivity. It allows consumers to communicate on the go and
to watch the video services they want where and when they want
to. Unlicensed spectrum technologies have allowed all of us to
use devices that have made our lives safer, and more
convenient, connected, informative and entertaining. It has and
will continue to help create billions of dollars of economic
growth and hundreds of thousands of jobs all across America.
    The spectrum provisions that were signed into law last year
had their beginnings in this subcommittee. We instructed the
NTIA and the FCC to begin the process of bringing additional
spectrum into the unlicensed marketplace by first asking them
to assess the feasibility of doing so without causing harmful
interference to licensed operators already occupying the band.
Just as we had a central focus on ensuring that broadcasting
remained a viable service after the incentive auction, so too
did we have a focus on ensuring that new unlicensed uses were
in addition to and not interfering with existing licensed
services.
    The 5 GHz ecosystem is teeming with existing uses. From
critical government radar systems to commercial satellites,
there are a host of licensed services that are already deployed
in this band. Today we will also hear from one of the
promising, but unrealized, licensed uses of this band:
intelligent transportation systems for smarter, safer vehicles.
However, it is important to also note that 5 GHz is also
currently being used for Wi-fi and other unlicensed uses.
Thanks to technical rules that limit power and require certain
mitigation technologies, these systems are currently meeting
our licensed and unlicensed needs without interfering with one
another.
    I am looking forward to hearing from our very qualified
witnesses today on both the potential that this spectrum holds
to fuel the next generation of unlicensed wireless technologies
and the benefits they will bring, but also the technical and
economic challenges to making the most of the band. I think I
speak for many of my colleagues when I say that we are excited
to see the fruits of this subcommittee's labor come to fruition
in the form of faster and more abundant Wi-fi, but not at the
expense of existing licensed services. These services can
coexist and thanks to the hard work of the industries and
agencies represented by our witnesses, we don't have to choose
between better Internet access and safer cars.

                                #  #  #

    Mr. Walden. With that, I would recognize the gentleman, the
vice chair of the subcommittee from Ohio, Mr. Latta.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. I thank the Chairman for yielding, and I
appreciate our panel of witnesses for being with us today. And
I look forward to hearing from your testimony today. I am going
to begin by thanking my colleague, the gentlelady from
California, Ms. Matsui, for working with me during our
consideration of the Jump-starting Opportunity with Broadband
Spectrum Act, which is ultimately included in the larger Middle
Class Tax Relief and Job Creation Act, to include the language
directing the FCC, NTIA and other agencies to study spectrum
sharing possibilities in the 5 gigahertz band.
    In the past, we have discussed the Federal Government's use
of spectrum and the opportunities that exist for improving its
use of this valuable asset, as well as our continued oversight
of the upcoming incentive auction. Today's hearing offers us
yet another opportunity to examine a portion of our Nation's
overall spectrum policy. The 5 gigahertz band presents a unique
opportunity to spur innovation and improve the performance of
our licensed spectrum network by offloading much of the mobile
data traffic to Wi-fi hotspots.
    While I understand and respect the concerns that will be
raised here today, I am confident the industry experts can find
a way to optimize this valuable real estate and avoid harmful
interference. The fact remains that we are in the midst of a
spectrum crunch. And to remain the world's leading innovator
and ensure consumer demand is met, we must find ways to utilize
spectrum more efficiently, making decisions on technical merits
rather than the politics of the past.
    Again, I would like to thank our witnesses for being here
today. I look forward to your testimony. And Mr. Chairman, I
yield back.
    Mr. Walden. The gentleman yields back. The Chair recognizes
the gentlelady from California, Ms. Eshoo, Ranking Member, for
opening statement.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and welcome to our
wonderful panel, amongst them my constituents. So welcome. And
I am sorry someone turned down the thermostat. But just think,
you are going to get back to California before I do. So thank
you for being here.
    Given the tremendous growth in Wi-fi usage and the need to
maintain our Nation's lead in developing gigabit Wi-fi
technology, thank you, Mr. Chairman, for holding today's
hearing on the 5 gigahertz spectrum band.
    The United States has been a world leader in unlicensed
spectrum, and I think that this is something that we can't ever
under-appreciate its importance and the importance that we not
just rest on our laurels, but that we continue to build on
that. I have what I would term as a love affair with
unlicensed. And I am very proud that in the spectrum bill to
have really used those two terms--those two words, unlicensed
spectrum, just over and over and over and over again to make
sure that we honored what that represents for our country and
the innovation platform that it is. Now, dating back to the
FCC's decision nearly 30 years ago to open up spectrum for
unlicensed use, we have been on a very important glide path
since then. And since that time, billions of devices have been
sold, and technologies such as Wi-fi and Bluetooth. I can't
live without Bluetooth. I don't know about the rest of you. I
mean, you get in the car and, you know, you would be hauled off
to jail in California if you are seen holding any kind of
device in your hand. So it is a reminder to me of how practical
the uses are, how many they are and that they are really
integrated into our lives. They are household names. They are
enjoyed by millions of consumers around the country.
    Now, by one estimate, in-home Wi-fi alone may be generating
between $4.3 and $12.6 billion a year in U.S. economic value.
That is pretty serious money, even around here. That is a lot.
And I want to see it grow. When adding the larger unlicensed
ecosystem, the figure rises to anywhere between $50 and $100
billion annually. But as Wi-fi demand has increased, so has
congestion. And more than one Member has already spoken of
this, particularly in the high trafficked areas such as
airports, convention centers and university campuses.
    With congestion increasing and consumers demanding faster
data speeds, the FCC announced a proposal earlier this year to
unleash up to 195 megahertz of spectrum in the 5 gigahertz band
for unlicensed use. In July, to ensure the agency's timely
implementation of the proposal, I wrote to Acting Chairwoman
Clyburn, along with Representatives Latta, Matsui and Issa. In
our letter, we emphasized the importance of spectrum sharing
and urged the FCC to proceed expeditiously with collaboratively
testing that includes both incumbents and the Wi-fi industry. I
look forward to hearing an update on these issues during
today's hearing. And I know that you are fully prepared for
that, right? And good answers for us. Happy answers.
    While the 5 gigahertz band is an important component of the
21st century unlicensed spectrum policy, it is complementary
and not a substitute for low-band spectrum below 1 gigahertz.
In fact, one such company who is innovating in this space is
Adaptrum, a Silicon Valley startup. And last week, they shared
this story with a bipartisan group of congressional staffers
and explained how the superior propagation factors found in the
television band will unlock new unlicensed innovations such as
rural broadband access which so many members of this committee
on both sides of the aisle have such a keen interest and
responsibility for, and expanded urban applications that
wouldn't be possible in higher bands of spectrum.
    So I think the time to act is now. The FCC should move
expeditiously to harmonize existing rules and make more
spectrum available for gigabit Wi-fi. And again, I want to
thank each one of our witnesses for being here today and
testifying. And at some point, maybe at the end of the hearing,
I'd like to get some great words of praise and commendation to
Roger Sherman. But I have certainly gone past my time. And I
yield back, Mr. Chairman. Thank you.
    Mr. Walden. Gentlelady yields back.
    Ms. Eshoo. And thank you for allowing Mr. Waxman and all
members for that unanimous consent request. It was a
gentlemanly thing to do.
    Mr. Walden. Happy to do it.
    Ms. Eshoo. Yes.
    Mr. Walden. So anyone on the Republican side seek the last
5 minutes, or should we move on to the witnesses?
    All right. So we will expedite our hearing and go to the
experts. And we are delighted to have each of you here. Thank
you for your submitted testimony, your willingness to give the
abbreviated versions this morning, or this afternoon, and take
our questions. We will lead off with the Chief of the Office of
Engineering and Technology of the Federal Communications
Commission, Mr. Julius Knapp. Julius, it is good to have you
back before the committee. I concur with Mr. Waxman. It is
always helpful as you translate technical engineering issues
into understandable policies. So the microphone is yours sir,
and go ahead.

 STATEMENTS OF JULIUS KNAPP, CHIEF, OFFICE OF ENGINEERING AND
  TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION; JOHN KENNEY,
PRINCIPAL RESEARCH MANAGER, TOYOTA INFO TECHNOLOGY CENTER; TOM
 NAGEL, SENIOR VICE PRESIDENT, BUSINESS DEVELOPMENT, COMCAST;
 AND BOB FRIDAY, VICE PRESIDENT AND CHIEF TECHNOLOGY OFFICER,
                             CISCO

                   STATEMENT OF JULIUS KNAPP

    Mr. Knapp. Thank you. Good afternoon, Chairman Walden,
Ranking Member Eshoo and members of the subcommittee. Thank you
for this opportunity to provide you with the status report of
the FCC's efforts to provide more access to unlicensed spectrum
in the 5 gigahertz frequency band. As the very title of this
hearing reads, this process presents numerous engineering
challenges. But increased access to unlicensed spectrum in this
band could greatly accelerate growth in expansion of new Wi-fi
technology, offering faster speeds, increasing overall capacity
and reducing congestion at hotspots. Unlicensed spectrum has
been a phenomenal success story. Innovations that utilize these
airwaves affect virtually every aspect of our daily lives,
including Wi-fi networks that we use in our homes and at public
hotspots, Bluetooth technology for connecting mobile devices
with wireless headsets and speakers, and for connecting
computer tablets and keyboards, electronic keys for opening car
doors, identification badges for secure access to buildings,
and many other products that are too numerous to mention.
Unlicensed technologies have spurred creation of entire new
industries in jobs to the benefit of businesses, consumers and
our overall economy.
    Congress recognized the importance of providing additional
spectrum for both licensed and unlicensed use in the Middle
Class Tax Relief and Jobs Creation Act. This law specifically
directs the NTIA and the FCC to examine the potential for
expanded unlicensed use in the 5 gigahertz spectrum. In
February of this year, the Commission adopted a notice of
proposed rulemaking, or NPRM, that satisfies the requirements
of Section 6406(a) of the Act. The Commission's NPRM was
focused on 3 separate portions of the 5 gigahertz band. The
first portion involves 100 megahertz of existing unlicensed
spectrum at the low end of the band. The Commission proposed to
remove the restriction on indoor use and to allow higher power
consistent with the other parts of the 5 gigahertz unlicensed
spectrum. These actions would make the spectrum much more
usable for Wi-fi and other technologies.
    The second portion of the NPRM would make 120 megahertz of
spectrum available in the middle of the 5 gigahertz band,
essentially filling in the gap that exists in the existing 5
gigahertz spectrum. It would create a large contiguous block.
This would allow more flexibility to accommodate the greater
bandwidths of the latest technologies. This band is used by the
Department of Defense and a number of other federal agencies.
    The third portion would make 75 megahertz of spectrum
available to extend the upper end of the 5 gigahertz unlicensed
band. This spectrum is allocated for intelligent transportation
services such as the dedicated short range communication
systems, or DSRC, for vehicle to vehicle and vehicle to
infrastructure technology. These actions would make up to 195
megahertz of additional spectrum available for unlicensed use
in the 5 gigahertz band, a 35 percent increase of the 555 that
is available there now. They would also enable greater use of
the latest industry Wi-fi standard 802.11ac that uses wider
channel bandwidths of up to 160 megahertz to provide data rates
of 1 gigabit per second or more.
    Because of the existing incumbent users in the three 5
gigahertz band, making more spectrum usable, or usable at all
for unlicensed use will be challenging. But the importance of
the 5 gigahertz band and the benefits of unlicensed spectrum
generally are clear, and the Commission has indicated its
strong desire to move forward in seeking to resolve these
challenges.
    Finally, I want to emphasize that the Commission has not
proposed to take away any incumbent user's right to operate as
a licensed service in the 5 gigahertz band. As with all
unlicensed services, these devices may not cause harmful
interference to licensed services and must accept whatever
interference that they receive. It is my hope that all parties
will work together in good faith to overcome these technical
and policy challenges, and that we will be able to find a way
to effectively share the spectrum that I describe today. Thank
you, and I look forward to your questions.
    [The prepared statement of Mr. Knapp follows:]

    [GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]

    Mr. Walden. Mr. Knapp, thank you for your presentation and
your testimony, and we look forward to speaking with you more
about that. We are going to go now--make sure I get the right
title--to Mr. Kenney, who is the Principle Research Manager for
Toyota Info Technology Center. Mr. Kenney, we are delighted to
have you here today. We look forward to your testimony as well,
sir. Go ahead.

                    STATEMENT OF JOHN KENNEY

    Mr. Kenney. Chairman Walden, Ranking Member Eshoo, members
of the subcommittee, thank you for the opportunity to testify
before you today. My name is John Kenney. I am a principal
researcher at the Toyota Info Technology Center in Mountain
View, California, where I lead our vehicular networking
research team.
    Despite remarkable advances in the crashworthiness of
vehicles, tens of thousands of Americans are still dying in
traffic accidents each year. We firmly believe that the next
great opportunity to reduce fatalities rests with technologies
that will prevent crashes in the first place. Dedicated short
range communication, or DSRC, is such a technology. DSRC
enables vehicles to communicate with each other. DSRC vehicles
broadcast precise information such as location, speed and
acceleration several times per second over a range of a few
hundred meters. Other DSRC vehicles receive these messages, use
them to determine if any neighboring vehicles pose a collision
threat, and then warn drivers of those threats. DSRC vehicles
can also receive safety-related information from roadside
infrastructure such as the state of an upcoming traffic light
or the presence of ice, a disabled vehicle or a pedestrian in
the road.
    NHTSA concluded that connected vehicle technology has the
potential to address approximately 80 percent of crashes
involved non-impaired drivers. They further determined that
DSRC at 5.9 gigahertz is ``the only communication option at
this time capable of effectively and reliably providing the
safety of life capability.'' DSRC can and almost certainly will
be used for other non-safety applications.
    Just as the Internet has moved far beyond its original
email and file transfer applications, DSRC is also likely to
unleash innovative connected car applications that go far
beyond collision avoidance. I recognize that there is some
skepticism about DSRC and concerns that the benefits are being
overstated, or that the automakers will never bring the
technology to market. I can assure you that Toyota is committed
to DSRC as a critical safety technology. We have already
commercialized DSRC in other markets and would like to bring it
to drivers in the United States in the near future.
    And we are not alone in this. The auto industry has been
working hard here in the United States to pave the way for DSRC
deployment, leading to the publication of core technical
standards in 2009 and 2010. U.S. DOT is also conducting
research and field testing with Toyota and other automobile
companies to prepare for widespread deployment of crash
avoidance systems that use DSRC. At this point, pre-production
prototypes have been developed and are currently supporting
large scale evaluations of applications that address the most
critical crash scenarios.
    In August, Toyota and seven other automakers completed a
year-long connected vehicle pilot program with U.S. DOT in
Michigan. The model deployment, which included nearly 3,000
DSRC vehicles, demonstrated vehicle to vehicle applications in
real world driving scenarios and verified the maturity and
stability of the standards. The results from the pilot are
expected to inform a regulatory decision by the agency of DSRC
technology by the end of this year.
    As you are well aware, the FCC issued an NPRM earlier this
year that solicited comments on opening the 5.9 gigahertz
spectrum to unlicensed devices. Toyota is not conceptually
opposed to sharing the spectrum and believes that it may be
possible for DSRC and unlicensed devices to coexist in the
band. However, we also believe that the creation of a sharing
framework, or the implementation of sharing rules, should not
be considered unless and until, one, a viable sharing spectrum
sharing technology is identified and, two, rigorous testing
verifies that there is no harmful interference from unlicensed
devices.
    Interference that results in delayed or missed driver
warnings will undermine the system's entire foundation,
rendering it essentially useless and putting the future of DSRC
technology in the United States at risk. Although we are
strongly committed to it, the automobile industry cannot
responsibly deploy safety of life, DSRC technology, unless the
possibility of harmful interference from unlicensed devices is
ruled out.
    Toyota is committed to helping validate a technical sharing
solution once one has been identified. We have been actively
engaged with the Wi-fi community and other stakeholders who are
exploring possible sharing solutions that alleviate any risk of
harmful interference from unlicensed devices. But we are not
there yet, and it is going to take more time to see if we can
get there. Until then, the FCC should refrain from taking any
further action in the 5.9 gigahertz band.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Kenney follows:]

    [GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]

    Mr. Walden. Mr. Kenney, thank you for testifying. We will
now turn to Mr. Nagel. Tom Nagel is the Senior Vice President
of Business Development at Comcast. Mr. Nagel, thank you for
being with us. And please, go ahead.

                     STATEMENT OF TOM NAGEL

    Mr. Nagel. Chairman Walden, Ranking Member Eshoo and
members of the subcommittee, thank you for the opportunity to
testify. I am pleased to discuss the many benefits of Wi-fi and
how the 5 gigahertz band is critical to ensuring Wi-fi
continues to serve as a platform for innovation, investment and
economic growth, all without harming incumbent users.
    At Comcast, one of my primary responsibilities has been the
strategic development of our wireless efforts, and in
particular our Wi-fi efforts. Comcast operates a Wi-fi network
that has expanded exponentially in less than 2 years, from
5,000 access points last year to nearly 350,000 access points
today. We have also partnered with other cable operators to
give our customers access to more than 100,000 hotspots, with
many more to come.
    My experience in building and operating Comcast networks
shows me firsthand the important role that Wi-fi plays in the
broadband marketplace. Consumers use Wi-fi for cost effective
and robust wireless access to the Internet. And various studies
confirm that unlicensed services like Wi-fi contribute tens of
billions of dollars in economic value each year.
    Wi-fi networks have also proven to be valuable during
emergencies. In the aftermath of Hurricane Sandy last year and
the attack of the Boston Marathon this year, licensed wireless
networks were temporarily overloaded or down completely. In
both cases, Comcast opened its Wi-fi network to provide free
access to anybody with a Wi-fi enabled device so that people
could receive urgent information and communicate with loved
ones. All consumers with a Wi-fi enabled device can use Wi-fi,
regardless of their wireless carrier. So it is a powerful and
flexible tool in emergencies.
    However, two challenges stand in the way of its continued
growth. First, the spectrum used in Wi-fi today is severely
congested, especially in densely populated areas. And without
quick action, consumers will begin to experience reduced Wi-fi
performance. To address this problem, we must ensure there is
sufficient unlicensed spectrum to meet growing consumer demand.
The 5 gigahertz band is critical to this effort. Second, the
next generation of Wi-fi, often called gigabit Wi-fi, requires
larger channels than are currently available and technical
rules that facilitate reasonable deployments. Gigabit Wi-fi can
only be done in the 5 gigahertz band. If we fail to make the
necessary changes, we risk falling behind other nations that
will deploy the next generation of Wi-fi.
    Fortunately, Congress, the Administration and the FCC have
already taken steps towards addressing these challenges.
Comcast commends Congress and this committee for passing the
Spectrum Act of 2012 which specifically identified the 5
gigahertz band as a powerful and unique resource for Wi-fi. And
we strongly support the FCC's implementation efforts. The FCC
has proposed two unlicensed bands in the 5 gigahertz and
sensible changes to existing bands. These improvements are
essential to relieving the existing Wi-fi congestion and
providing enough spectrum to support gigabit Wi-fi.
    Importantly, under the FCC's proposals, Wi-fi will be able
to share the 5 gigahertz band without causing harmful
interference to existing users. This approach maximizes the
value of spectrum for all Americans. Although portions of the 5
gigahertz band may present complicated technical issues, in
some sub-bands, the FCC has a clear path to move forward now.
Specifically, the FCC should adopt its proposed rule changes in
the UNII-1 band, which would make 100 megahertz available for
Wi-fi almost immediately. Importantly, the Department of
Defense recently announced it does not need access to UN81.
That means that just one company uses all 100 megahertz for a
small group of customers. And technical studies have shown that
proposed rule changes would not cause harmful interference to
the incumbent in the band. And this should be our top near-term
priority.
    Comcast is also enthusiastic about expanding Wi-fi
operations to the UNII-4 band. We have reached out to the ITS
companies to find a sharing solution that protects ITS and
allows for Wi-fi investment. Now is the perfect moment to do so
because there are no commercially deployed ITS vehicles using
the 5 gigahertz band. We are willing to be flexible to ensure
that ITS is protected. We ask that the ITS interests also agree
to be flexible.
    There is a solution to be had. The days where incumbents
can hold exclusive rights to unutilized or underutilized
spectrum have long since passed. Wi-fi services in the 5
gigahertz band will offer enormous economic benefits and social
benefits. Comcast is committed to working with Congress, the
Administration, the FCC and incumbents to reach solutions that
will maximize the value of the 5 gigahertz band to this Nation.
Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Nagel follows:]

    [GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]

    Mr. Walden. Mr. Nagel, thank you for your testimony. We
appreciate it. And now we go to Bob Friday,who is the Vice-
President and Chief Technology Officer of Cisco. Mr. Friday,
thank you for joining us. We look forward to your testimony,
sir.

                    STATEMENT OF BOB FRIDAY

    Mr. Friday. Chairman Walden----
    Mr. Walden. And if you could just touch that little
microphone button there?
    Mr. Friday. So Chairman Walden, Ranking Member Eshoo and
members of the subcommittee, thank you for the opportunity to
appear before you today. It is an honor. Mr. Chairman, we are
in the midst of a technology revolution to mobilize the
Internet. And it is transforming the way Americans and billions
of people around the world collaborate, communicate and connect
to the Internet. The education customers I work with are
incorporating video, mobile applications into their curriculum
with up to 100 students in auditoriums, accessing the network
simultaneously. Health customers are relying on Wi-fi to
educate patients--devices and provide nurses instant access to
medical records, and manufacturing customers are increasingly
Wi-fi to enable workers on the factory floor to have real-time
video conversations with experts anywhere in the world.
    What do these things all have in common? They all depend on
Wi-fi for connectivity. In these areas and so many more, Wi-fi
has become a central way for people to access the Internet. But
a new challenge has emerged due to Wi-fi's spectacular success.
There is a looming spectrum crunch in front of us, which if not
addressed will slow activity, economic growth, and economic
technology leadership and mobility. The Wi-fi--the widespread
adoption of Wi-fi, it began in the early 2000s when most of us
here got us first taste of mobile Internet at our homes, coffee
shops, hotels and airports. Today, Wi-fi's reach has expanded
into the workplace, air travel and many other locations. And
Wi-fi will become a critical complement, a safety valve if you
will, to our cellular networks in helping offload mobile
Internet traffic from our licensed spectrum.
    By 2017, 66 percent of all mobile Internet traffic, fully
two-thirds, will either start or end on a Wi-fi network.
Without offloading licensed spectrum networks, we will simply
be overwhelmed. In just over a decade, Wi-fi has become a
dynamic economic driver leading to over 37 billion dollars of
economic value for the U.S. economy every year. And it is the
foundation for a whole new mobile app economy that it has
created more than 500,000 new jobs since 2007.
    The development of Wi-fi is one of the great American
innovation stories. Thirty years ago, unlicensed spectrum was
considered junk or garbage spectrum, a place for tinkerers and/
or vendors to build low-powered devices of limited use. Then
the FCC came up with a simple ideal, change the rules to allow
spectrum technologies to share unlicensed bands with the one
caveat, no harmful interference to incumbent users. Innovators
and entrepreneurs rushed in. Wi-fi was born, and the results
have been breathtaking. Six billion Wi-fi enabled devices have
been shipped since 2000, and this number is expected to grow to
15 billion by 2017. Wi-fi has become the industry standard
alongside cellular for connecting to the Internet now.
    Wi-fi will be a driver in the development of the Internet
as well. We are moving to an Internet of everything that will
connect people, process, data and things that is leading to
profound changes in manufacturing, agriculture, energy and
dozens of other sectors. But this potential is limited by the
looming spectrum crunch.
    So what can be done here? The industry has a major role to
play, particularly in the development and deployment of next
generation of Wi-fi known as 802.11ac. This technology is more
efficient and can handle vastly more traffic than previous
generations. It will deliver throughputs of 1 gigabit per
second or faster, hence the name gigabit Wi-fi. Here in front
of me, I have the first Cisco gigabit Wi-fi access point. In
June of 2013, it became the first enterprise access point to
have a gigabit Wi-fi certification, 1 of over 190 devices that
have been certified to date. So gigabit Wi-fi is real. It is
here. It is needed to meet the exploding demand for video. But
to realize that full potential of gigabit Wi-fi, wider bands of
contiguous spectrum are needed. So policymakers have a major
role to play as well providing more spectrum.
    The Energy and Commerce Committee led the way in 2012 when
you directed the FCC and NTIA to study the feasibility of
sharing additional spectrum for Wi-fi in the 5 gigahertz span.
And I want to thank you for your leadership on this, as well as
the effort to establish voluntary incentive auctions. To be
sure there are some significant technical challenges in the 5
gigahertz band, it is not clear spectrum. It contains incumbent
uses important for national security and public safety. And it
is imperative that Wi-fi not create harmful interference to
these incumbent systems. And Cisco will not settle for less.
Yet with the leadership from the FCC and the NTIA, and the
cooperation of our industry partners, we are confident that
technology solutions to these challenges can and will be found.
    The bottom line, adding more spectrum for broadband and Wi-
fi will lead to new ecosystems, new industries, new jobs, as
well as help ensure economic technological leadership around
the globe.
    Cisco stands ready to work with this committee and other
policymakers to find solutions to the important challenges
before us, and I want to thank you for your time.
    [The prepared statement of Mr. Friday follows:]

    [GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]

    Mr. Walden. Mr. Friday, thank you. And I think we all
agree, this is a huge opportunity for the country for
innovation and technology for new jobs, new devices,
replacement of all our existing devices so we can communicate
faster.
    I have a question for the group. Qualcomm, which
manufactures equipment for both intelligent transportation
applications and Wi-fi, has suggested that moving ITS
operations to the top of the ITS band and then excluding them
from sharing with Wi-fi would solve many of the challenges in
the UNII-4 band. I'd like to ask unanimous consent to enter
into the record the comments of Qualcomm in the FCC's
proceedings on this matter without objection. \*\
---------------------------------------------------------------------------
    \*\ The information has been retained in committee files and is
also available at http://docs.house.gov/meetings/IF/IF16/20131113/
101359/HHRG-113-IF16-20131113-SD010.PDF.
---------------------------------------------------------------------------
    Mr. Walden. So, Mr. Friday, let's start with you. Do you
agree with Qualcomm's approach?
    Mr. Friday. So if we look at Qualcomm, we think the
proposal has merit in terms of spectrum efficiency. We think it
may be a little late in the game, given that ITS is as far down
the path as they are. So yes, we think it has merit, but we
think it may be a little late to the discussion.
    Mr. Walden. Does that mean it is too late for the
discussion?
    Mr. Friday. No, I don't think it is too late. I think it is
something that is worthy to take a look at. But I think we
acknowledge that the ITS has done a lot of work on the DSRP.
    Mr. Walden. Right.
    Mr. Friday. And we are sensitive to that.
    Mr. Walden. OK. Mr. Knapp, is there anything about the top
of the ITS band, as opposed to the bottom, that would moot the
work that has been done over the last decade on ITS?
    Mr. Knapp. Sir, I think ITS has envisioned that it would
have the entire 75 merits, and has been planning for that. So
we did not tee up the question of whether we should change the
allocation. And generally, with unlicensed, it shares on an un-
interference basis, so it would be a completely different
direction than was teed up in the Commission's notice.
    Mr. Walden. Mr. Kenney, if this arrangement did indeed
prevent harmful interference to ITS, would Toyota support such
an outcome?
    Mr. Kenney. Sir, first of all, we appreciate our friends
from Qualcomm stepping up with this idea. We invite everyone to
put ideas on the table. We think that there are a couple of
fundamental problems with it, which we have documented in our
FCC filings. One of them is that it has a premise that all of
the safety critical communication could be compressed into one
or two channels. And the fact is that is just not true. With
the plans that we have for using the spectrum for collisions
avoidance, for public safety, for automated driving, for
security, for a number of other things, we need all of the
spectrum, and we plan to have safety critical communication in
all of it. So that premise that underlies their proposal just
doesn't quite bear out.
    The second motivation that they offered for putting this
forward was that it was a way to streamline this whole process,
perhaps to--it may be something we can all agree to in this
space of a couple of months and skip all of this. But that
misses the point that we have been--for our v-to-v collision
avoidance work, we have been concentrating on testing
rigorously, and with our current band plan. And if we were to
change and reshuffle the deck, so to speak, we would need to
repeat a lot of that testing. We would incur a lot of delay. We
would have to worry about cross channel interference issues,
for an example that we haven't had to worry about yet.
    Mr. Walden. Sure. So let me ask you two questions. I think
you began this effort '93 or thereabouts. What is your
timeline--and I realize you are innovating as you go, trying to
get this right. And the second point, are there non-sort of
safety security communications in the 75 megahertz of band--in
other words, is it all critical safety, or are there other
offerings that could be moved somewhere else?
    Mr. Kenney. Yes. So with the regard to the timeline
question, as you probably know, we are at a fairly critical
point waiting for the NHTSA regulatory direction. There are a
number of different deployment paths we can take once we get
that direction. It will become much clearer. But we are at a
pre-deployment phase. Our technology is mature. The fact that
our European colleagues are committed to deploy this in only 2
years from now is evidence of that.
    Mr. Walden. Are they using the same band?
    Mr. Kenney. Yes, they are--well, they are using a subset of
it. They have 30 megahertz that is the subset of our 75.
    Mr. Walden. And are they able to do everything there that
you are proposing to do here?
    Mr. Kenney. Well, they are planning to augment that with
two additional allocations as time goes on. So they are
starting with 30, then they are going to go to 50 and then they
are going to go to 70. So it would be 70 that matches us.
    Mr. Walden. Is the 30 mission critical? Is it safety
security first?
    Mr. Kenney. Yes, that is what they are starting with.
    Mr. Walden. And is the other, will it be safety? Or is it
additional----
    Mr. Kenney. I think that it remains to be seen. What they
are saying is that the middle 30--their 30 is in the middle of
our 70, if you will. And that is safety critical. They are
planning to put some non-safety applications in the next 20.
    Mr. Walden. What would that be? Give me an example.
    Mr. Kenney. Examples of that might be infrastructure to
vehicle communication to provide navigation assistance or
traffic updates.
    Mr. Walden. OK.
    Mr. Kenney. Or even commercial services to tell you what
you can access in the road up ahead.
    Mr. Walden. I see. All right.
    Mr. Kenney. But to come to your second question then.
    Mr. Walden. Yes.
    Mr. Kenney. Yes, there are non-safety critical
communications that will be in our band. But they won't be--
they won't have a dedicated channel. They will be mixed in at a
lower priority below, if you will, the safety critical
communication that we planned to put in these channels.
    Mr. Walden. I see. Yes. All right. Thank you, Mr. Kenney.
My time has expired. I will turn to my friend from California,
Ms. Eshoo, for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman. And thank you to each
one of you, important and very interesting testimony.
    I want to start out, Mr. Nagel, by thanking you and Comcast
for what you did during the tragedy in Boston by--for the use
of your network. And you know, it is stories like that that
always remind me in the hearing room or whatever I am doing
here that we have a wonderful sense of unity about us, even
though we have got lots of problems, challenges, some we
create, others are there and we have to address them. But it is
wonderful to hear you talk about that. And so I salute you. I
think the entire committee does. Thank you.
    Mr. Knapp, I leaned over and I said to my colleagues, Henry
said that Mr. Knapp is terrific at breaking down everything so
we can understand it, and I am having a hard time understanding
you. So I want to dig into your testimony and see where we are
making some progress here. The DoD recently indicated that it
doesn't intend to add additional systems to the 5150 and the
5250 megahertz band, also known as UNII-1 band. Do you think
that the FCC can proceed to make the band available for higher
power outdoor Wi-fi services on an expedited basis?
    Mr. Knapp. So----
    Ms. Eshoo. Because that would be an important step, I
think.
    Mr. Knapp. Yes, we are certainly considering that. The
issue----
    Ms. Eshoo. Seriously? Are you considering it seriously?
    Mr. Knapp. Whether we can address that lower piece first,
it was not a subject to the additional studies.
    Ms. Eshoo. Yes.
    Mr. Knapp. But just to be clear, there were oppositions
that were filed by the satellite industry.
    Ms. Eshoo. Yes.
    Mr. Knapp. And we are busy analyzing that work.
    Ms. Eshoo. I see. OK. Well, that is hopeful. To Mr. Friday
at Cisco, thank you again. You brought a very important and
hopeful message to us in terms of what all of this represents.
It is my understanding that Cisco is advocating a listen,
detect, avoid approach to successfully manage interference at
the 5.9 gigahertz. Does this mean that Wi-fi and DSRC could
coexist peacefully? Put your microphone on. I am dying to hear
your answer.
    Mr. Friday. Yes. No. Thank you.
    Ms. Eshoo. Yes.
    Mr. Friday. No. Thank you for the question. And, yes, Cisco
has proposed a solution to co-share the band with DSRC.
    Ms. Eshoo. Yes.
    Mr. Friday. We have looked at DSRC. The roots of DSRC comes
from .11.
    Ms. Eshoo. Yes.
    Mr. Friday. So compared to radar, it has the same DNA as
.11. We think there is a relatively easy way to share the band
and be able to detect DSRC signals and basically vacate the
band within the blink of an eye once we detect those signals.
    Ms. Eshoo. Excellent. So to Mr. Kenney, what Mr. Friday
just described sounds exciting to me and reasonable. Do you
agree?
    Mr. Kenney. Yes.
    Ms. Eshoo. Good.
    Mr. Kenney. So as to echo my earlier statement, we are very
happy that Cisco has stepped up with this idea, and we think
that it has real potential. The fact that there is this common
DNA, if you will, between the DSRC underlying technology and
Wi-fi is a positive that makes it so that they should be able
to detect us and vacate the channel when they detect us.
    Ms. Eshoo. Yes. Yes. And to Mr. Friday and Mr. Nagel, can
you describe the difference in consumer experience between
existing Wi-fi and gigabit Wi-fi?
    Mr. Nagel. Sure. You know, today what we have is we have a
Wi-fi environment. We have all spoken about how we all use it.
It is highly digestible. It is in everywhere we are. And I
think one of the things we are experiencing today is that we
use it a lot. And so one of the components of that experience
is is that in certain places we get congestion, and the things
we want to do aren't we can't do the as much as we used to.
What gigabit Wi-fi does is that it really begins to expand our
ability to drive very, very high rates of information to not
just one device but multiple devices, maybe even hundreds of
devices. And so the platform that is getting built for an
individual user will feel faster. It will feel better. It will
feel like I am more connected. Just like I always had an
Ethernet, you know, cord right into the back of my device that
none of our devices have, it will feel very similar to that.
    Equally importantly though, as you think about gigabit Wi-
fi, there is a consumer experience side. But once you build it,
then you have this platform that you mentioned, rightly, which
is it is an innovation platform. Once you build it, you're
going to have lots of companies that come out and begin to go
deeper and build great things we don't even know about today.
    Ms. Eshoo. Yes. Wonderful. Do I still have some time?
    Mr. Friday. And to add on what Tom was saying is----
    Ms. Eshoo. Yes.
    Mr. Friday. The customers that we are working with right
now, like in the universities and higher ed, the use cases that
we are seeing are in these auditorium and classroom cases where
they are actually getting into a congestion problem where
students cannot get access to the curriculum on time.
    Ms. Eshoo. Yes. Yes.
    Mr. Friday. So that is where Wi gig brings the capacity we
need to be able to solve these types of use cases. The other
consumer use case we are seeing right now is in our healthcare
industry.
    Ms. Eshoo. Yes.
    Mr. Friday. The healthcare industry has been probably at
the leading edge of adopting a Wi-fi. When you go into these
hospitals now, besides the nurses, we have connected probably
more devices in the healthcare space--and this is becoming a
critical issue now of how to make sure that all these
healthcare----
    Ms. Eshoo. No, I have seen it at Lucile Packard Children's
Hospital in the operating room.
    Mr. Friday. Yes. And it has become----
    Ms. Eshoo. Yes.
    Mr. Friday. The healthcare industry is a good example where
they have become highly reliant on Wi-fi to connect the sensors
to all the people.
    Ms. Eshoo. Thank you very much. Mr. Chairman, I am sure I
have gone past my time. Thank you.
    Mr. Walden. You are welcome. I will turn now to the vice
chair of the full committee, Ms. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. I want to thank
all of you for being here. And, Mr. Friday, I want to thank you
for mentioning the healthcare. We see so much of this in
Nashville, and there is a tremendous amount of cross-usage and
innovation. And one of the things we hear regularly from people
is, what are we going to do about the spectrum crisis that is
coming and as they do connect more healthcare devices. We are
seeing firsthand how important that is going to be.
    I want to ask you a question. Going into your testimony,
you said that a successful outcome to the FCC's current
examination of 5 gigahertz means that Wi-fi cannot create
harmful interference to those incumbent systems. So let us
touch on that for just a minute. And see here, tell me what you
think needs to happen to find a solution that protects against
harmful interference to the incumbents, and also accommodates
some of these new unlicensed devices and technologies that can
continue to help grow the economy but also expand the usage,
the healthcare--we have a lot of entertainment product in
Nashville that is trying to share the space. I see your heads
all nodding. Last week was CMA week in Nashville. And, of
course, with all the performances and tours, this is something
that we discussed a good bit. So if you will just speak to that
for a couple of minutes? I think I have got constituents that
would be interested to hear your answer.
    Mr. Friday. Yes, so when you look where unlicensed started
with, the whole premise was sharing without harmful
interference to the incumbents. The journey started back in the
'80s with spread spectrum, and that was kind of the initial
technology that we brought to share the spectrum. DFS was the
next technology we brought to share with the radar bands, and
USIS. The work we are working with the ITS community right now
is really another detection technology. In this case, we think
it is a relatively simple technology since we have the same
DNA. When we look forward in how we can share the other bands,
we are looking to new technologies like databases. And we
believe that as we move into this mobile Internet world, given
spectrum as a fixed resource, we are going to have to start
developing more sharing technologies to keep up with the mobile
demand that we see happening in that space.
    Mrs. Blackburn. OK. Mr. Nagel, did you want to comment on
that?
    Mr. Nagel. I think the Wi-fi area in general is a great way
to take fantastic broadband speeds we are all used to that are
sitting at our desk in our home, in our office and make it
available outside of that, that footprint. It is mobile
broadband, and it is probably the best implementation of it to
where you can do really, really, really fast speeds. Gigabit
Wi-fi is one of those things that allows us to do that. And it
is one of the reasons why we are here is because we won't be
able to do those things if we don't solve some of these
spectrum issues, especially in the unlicensed band in the 5
gigahertz, both at the lower end but also at the upper end.
    I think when you think about--if you look at what is
happening in the UNII-1, that especially with the DoD saying
they don't need access to it, it is a great place for us to
begin to bring rural spectrum and be able to bring it to bear
quickly. So if we decided to do that, the FCC ruled that way.
Your devices you have in your hand today, the access points
that we are deploying can utilize that spectrum very, very
quickly. So we would be able to alleviate rural spectrum
crunches in those locations in places that are education,
healthcare, those types of things. Where people are gathered,
Wi-fi is a fantastic solution. And it is why we need those
spectrum to do more of that, but also broader channels so we
can do more of it at the same time in the same location. So it
is solving both problems, more unlicensed spectrum and then
also aggregating the channels so we can get the gigabit Wi-fi
working at the same time.
    Mrs. Blackburn. OK. Mr. Knapp, let me ask you this. We
talked a little bit--Mr. Nagel mentioned in his testimony UNII-
1. And I want to ask you if you think with one company
operating in that 100 megahertz if the FCC has the information
to act now on sharing in that space?
    Mr. Knapp. So the issue in that space is simpler than the
sharing we are talking about in the other bands. We have a full
record. I expect there will be ongoing dialog on the one issue
that is outstanding, and that is the sharing with the satellite
service. Bear in mind that the services that are allocated
spectrum, and in this case satellite, are protected against
interference from unlicensed. So whatever we do here needs to
assure that there won't be interference to the satellite
service.
    Mrs. Blackburn. Right. I appreciate that. I just think that
as we--regardless of which space it is, I think it is incumbent
upon us to make certain that we are using it wisely. Yield
back.
    Mr. Walden. Gentlelady yields back. At this time, the chair
recognizes the gentleman from Michigan. Thank you.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy. I
commend you for the hearing. I have a number of questions which
will require simple yes or no answers.
    From the onstart, I do recognize economic and technological
benefits associated with wireless growth. However, with regard
to unlicensed use in the 5850-5925 megahertz band, I believe
that we can all agree that protecting vehicle occupant safety
is a goal of paramount importance. To that end, I reference the
Federal Communications Commission Acting Chairman Clyburn's
November--rather September 26 letter to me stating users of
part 15 devices must not cause harmful interference to the
licensed services in the 5 Ghz band.
    To Mr. Knapp, is it correct that the National
Telecommunications and Information Administration, NTIA,
released a report on unlicensed use of the 5350-5470 megahertz
and the 5850-5925 megahertz bands in January 2013, yes or no?
    Mr. Knapp. Yes.
    Mr. Dingell. Now, Mr. Knapp, I believe it is also correct
that NTIA's report identified a number of interference risks in
the 5925 megahertz band associated with unlicensed use, and
concluded that further study and analysis is necessary in order
to mitigate such risks, is that correct?
    Mr. Knapp. That is correct. Yes.
    Mr. Dingell. Now, Mr. Knapp, is it true that the Federal
Communications Commission's February 20, 2013, Notice of
Proposed Rulemaking seeks comments on harmful interference
protection requirements to permit gigabit Wi-fi devices to
operate in the 5 gigahertz bands, yes or no?
    Mr. Knapp. Yes.
    Mr. Dingell. Now, Mr. Knapp, is it true that Associate
Administrator Karl B. Nebbia of the Office Inspector Management
at NTIA sent you a letter dated June 10, 2013, in response to
the Commission's Notice of Proposed Rulemaking in which Nebbia
raised concerns about potential harmful interference between
unlicensed devices and DSRC systems, yes or no?
    Mr. Knapp. Yes.
    Mr. Dingell. Now, Mr. Knapp, is the Commission actively
engaged in--with the wireless industry, automakers, the
Department of Transportation and other incumbent users to
resolve any possible harmful interference issues associated
with the unlicensed use in the 5850-5925 megahertz band, yes or
no?
    Mr. Knapp. Yes. Yes.
    Mr. Dingell. And will the Commission continue to be
interested in that matter in the future?
    Mr. Knapp. Yes.
    Mr. Dingell. And they have got to simply because you have
potential for very destructive interference, is that right?
    Mr. Knapp. Yes.
    Mr. Dingell. Now, Mr. Knapp, given that the Commission
licensed the intelligent transportation system service almost
15 years ago, is it reasonable to say that it would be
premature for the Commission to authorize unlicensed use of the
5850-5925 megahertz band before studies are completed that
confirmed that such use would not cause harmful interference
with ITS services and other incumbent users, yes or no?
    Mr. Knapp. Yes, we would need a complete record.
    Mr. Dingell. Now, Mr. Knapp, in your experience, is it
conceivable that the Commission would approve unlicensed use of
the 5850-5925 megahertz band, which is the one used by autos,
before definitively establishing no risk of harmful
interference with ITS systems or establishing practical
strategies to mitigate such risk, yes or no?
    Mr. Knapp. No, we would not act until the engineering work
is complete.
    Mr. Dingell. Thank you. Now, Mr. Knapp, alternatively, is
the Commission considering moving forward with rulemaking
openings up only the 5350-5470 megahertz band to unlicensed
use, yes or no?
    Mr. Knapp. Only the 5--could you repeat the question? I am
sorry.
    Mr. Dingell. Go ahead and say it the way you think it is
best should be said.
    Mr. Knapp. I don't expect we would move on these bands that
are being studied. The one that we are considering where we
have a complete record is the lower piece, the existing band.
    Mr. Dingell. I certainly thank you. Mr. Chairman, I ask
unanimous consent that I have two additional minutes. I have
got a lot of questions. I think they are useful to the
committee.
    Mr. Walden. Without objection, we would be delighted to
have you continue this line of inquiry.
    Mr. Dingell. You are most gracious, and I thank my
colleagues. Now, Mr. Friday and Mr. Nagel, are Cisco and
Comcast in agreement with the unlicensed--rather than for
unlicensed use of the 5925 megahertz band to be permitted, the
risk of harmful interference with ITS systems must be
mitigated?
    Mr. Friday. Yes.
    Mr. Dingell. Yes or no?
    Mr. Friday. Yes.
    Mr. Nagel. Yes.
    Mr. Dingell. Thank you, gentlemen. To again, Mr. Friday and
Mr. Nagel, are Cisco and Comcast in agreement with both Wi-fi
and ITS systems that they can share the upper 5 gigahertz band
without causing harmful interference to one another, yes or no?
    Mr. Friday. Yes.
    Mr. Nagel. Yes.
    Mr. Dingell. Thank you, gentlemen. Now, will you please
submit for the record any harmful interference mitigation
proposals that your companies have developed? And would our
other panel members please also submit that? Now, again, Mr.
Friday and Mr. Nagel, will Cisco and Comcast actively engage
with automakers to identify harmful interference mitigation
solutions in the 5925 megahertz band, yes or no?
    Mr. Friday. Yes.
    Mr. Nagel. Yes.
    Mr. Dingell. Thank you, gentlemen. Now, a word here from
Mr. Kenney. Mr. Kenney, does Toyota appreciate the potential
economic and technological benefits freeing up more spectrum
for unlicensed use, yes or no?
    Mr. Kenney. Yes.
    Mr. Dingell. Now, Mr. Kenney, will Toyota actively engage
with the tech community to identify harmful interference,
mitigation, solutions in the 5925 megahertz band, yes or no?
    Mr. Kenney. Yes.
    Mr. Dingell. Mr. Kenney, all the same, does Toyota agree
with--that the Federal Communications Commission should proceed
only on the basis of a solid record concerning harmful
interference mitigation before approving unlicensed use of the
band 5925, yes or no?
    Mr. Kenney. Yes.
    Mr. Dingell. Mr. Chairman, you have been abundantly
gracious. And to my colleagues, I express my thanks.
    Mr. Terry. Mr. Chairman?
    Mr. Walden. Yes?
    Mr. Terry. Can I state for the record that the reason why I
did not object was Michigan's kindness in allowing the Huskers
to score that last touchdown in the last 2 minutes for a
victory?
    Mr. Walden. The gentleman from Nebraska, I was hoping to go
the entire hearing without discussing football. We didn't do so
well as Ducks on Thursday night. So we will have that
discussion later. Now, we will turn to the gentleman from Ohio,
I think is up next, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thanks, Mr. Chairman. And again, thanks
for our panel. One of the things we have talked about in this
subcommittee is that industry usually is much further ahead
than Congress or the regulators would be, really might be two,
three, four steps behind. And that is why it is so important to
have you before us today to hear your testimony. And if you
just go down the line, we have been having questions as to what
we are looking at today. But I would really like to ask
everyone, and also from Mr. Knapp with the Commission as to
where do you--we are talking about where we are today, where we
are going to be in 5 years or 10 years. Just if you were
looking at a crystal ball, just briefly tell me where you
think--because I know that, Mr. Friday, in your testimony, you
stated that between the Wi-fi side over the last decade
generated about 37 billion dollars. But where are we going to
be in the next 5 years, because this is changing so quickly.
Where do you think we are going to be?
    Mr. Knapp. So, I think if you look at what is happening
right now, as I mentioned, we are kind of moving from what I
call a mobile voice paradigm, right? We are moving from this
paradigm to a very mobile video paradigm on this here. So 5
years from now, I suspect we are going to see many more sharing
technologies.
    Ms. Eshoo. Yes.
    Mr. Knapp. When you look at the problem of this and this,
this requires 100 times more capacity, which is going to
require 100 times more from the fixed resource we have. So I
think we are going to have to see more licensed spectrum
policy, and I think we are going to have to really leverage the
sharing spectrum policy going forward.
    Mr. Latta. Mr. Nagel?
    Mr. Nagel. Well, I think there are other things we will
find as well. And that is that it is not just individual
devices that we are going to want to have more capacity for,
because they require it. It is going to be that all of us have
lots of devices as well. And this will occur both inside the
home with the Internet of things as we have almost everything
in our home beginning to connect, and we are controlling our
house. And it is one of the reasons why as we look to the
future, we are sitting here today, right? I mean, as we see the
growth--just looking at our network and the network that we
built in Wi-fi, we have triple digit growth in sessions and
users and tonnage literally every year. And it is not a baby.
It is accelerating. And without some of the things we are
talking about here today, I think it really becomes critical.
And I think it really requires both sort of true, deep
consideration, both in the UNII-1 band, which we have been
talking about, but also in the UNII-4 band. I think one of the
struggles that we have is when we look at sort of what has been
going on in the ITS is that this is something that was thought
of 15 years ago, and the world has changed so radically. You
are asking what is going to happen in the next 5 years. If you
looked 15 years ago what has happened that having 75 megahertz
sort of dedicated seems something that was really developed,
thought of and conceptualized 15 years ago, if we don't sort of
fix this today and really work through how Wi-fi is going to be
a part of that band, it is only going to get more expensive
down the road, because there is not a lot of other spectrum to
do gigabit Wi-fi in.
    Mr. Latta. Thank you. Mr. Kenney, you were talking about
what could be going on with cars talking back and forth between
each other. But when is it going to be that for instance, have
that car drive us home or drive us to work?
    Mr. Kenney. Well, we hope to all live to experience that,
don't we? That would be great. Yes, I think in 5 or 10 years,
we are going to see a very different driving experience than we
have today. And with respect to this period of time we have
been doing research on DSRC, we are now on the threshold of
being able to cash in on that research. And I think in 5 and 10
years, our drivers are going to be able to experience the
benefits of having a car that can intelligently help them avoid
the most dangerous driving situations. So I think that the
connected car is going to be a very exciting place to be in 5
and 10 years.
    Mr. Latta. And, Mr. Knapp, hearing all of that, and with
the FCC, how do you work at the FCC to make sure all these
things can happen that we work with the industry out here to
make sure that the regulations that are promulgated make these
things come to pass?
    Mr. Knapp. Absolutely. And I wished I knew what was going
to happen in 5 years. What I can tell you is this. We try to
ensure that the opportunities are there with at least
regulation as absolutely needed so that the innovators can
flourish. Personally, I think the sky is the limit. And there
are things that have happened already that nobody would have
predicted. There is synergy between licensed and unlicensed in
ways where 5 or 6 years ago we were arguing about which is
better, when in fact the two of them complement each other.
    From the standpoint of the things we are discussing today,
we are going to have to continue to drive spectrum efficiency
and these kinds of advanced sharing techniques that we are
working on. They are hard. They take a lot of thought and a lot
of work and testing to make happen. And we are going to have to
keep driving down that path. Sharing isn't the only solution. I
think we will still be looking at bands where reallocation
makes sense. But these are going to be tough issues.
    Mr. Latta. Thank you very much. Mr. Chairman, I see my time
has expired and I yield back.
    Mr. Walden. The gentleman yields back. We now turn to Mr.
Butterfield for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman, to the
ranking member for convening this very important hearing today.
As most of you certainly know, I served on this subcommittee
some years ago and went off the committee to be the ranking on
another committee. And with the election of Senator Markey now,
I find myself back on this committee and glad that I am here.
There has been so much--there might be a round of applause, not
for me, but for Mr. Markey, I suppose. But just listening to
the testimony and just reviewing the material for today, we
have made great advances over the last 4 or 5 years that no one
could even imagine. And, Mr. Knapp, I think you just hit the
nail right on the head a few minutes ago. It is just limitless
of what innovation can mean, not only for the bottom line of
your companies but for the prosperity of our country. And so I
want to thank you for all that you do, and thank you for your
investment in the future.
    I am going to start with Mr. Nagel. Mr. Nagel, I heard Mr.
Friday a moment ago say that devices that support gigabit Wi-fi
already exist. I am not sure I fully understand and appreciate
that. Is that correct?
    Mr. Nagel. Well, it is correct in the sense that devices
have within them the brains and their antennas and all that to
make gigabit Wi-fi work. What it doesn't have is access to the
spectrum. So you can build the electronics to make it work and
be future proof, which is what they have begun to do. And a lot
of the equipment we are deploying is also capable of doing
similar types of things.
    What is necessary though is for us to make and move forward
on some of the 5 gigahertz decisions that are in front of us
today. So the first would be UNII-1. We have already mentioned
that all the information is in on the record, and the FCC is in
the process of making some of its decision. Our view is that we
can do a lot within UNII-1 and begin to bring big channels,
which is really what you need. So most--like most devices
today, Wi-fi use 20 megahertz channels. When you get to enough,
you will put 160 megahertz together. And it is that
concatenated spectrum band that allows you to do that amount of
speed at one time. But it requires that spectrum and the
unlicensed spectrum. And so that is where the 5 gigahertz
becomes very, very important, not just in UNII-1, which is by
far the easiest decision to make, we think, but also in UNII-4.
And it does require harder decisions, but ones we ought to make
now before we get too far down the road.
    Mr. Butterfield. But typically, certification and approval
usually take a long time after spectrum, would that be correct?
After the spectrum is made available, typically it takes awhile
to get it perfected?
    Mr. Nagel. Honestly, it is an area that I am not familiar
with. I think generally that it gets--actually, I am not sure
how to answer that, to be honest with you. I think that as
devices get built, as long as they are within the Wi-fi
standard, I think you can work within that band. Generally,
when you get new bands is when you have to go through another
approval, but it is not my area of expertise. So----
    Mr. Butterfield. All right. In your testimony, you
describe, Mr. Nagel, the growing importance of Wi-fi in times
of crisis. Can you elaborate on some of the examples of when
this technology has proven valuable in times of crisis, and
explain the role that Wi-fi can play in going forward in
emergencies?
    Mr. Nagel. Sure. I would love to. We have some examples
that Comcast has been involved with. The first is Hurricane
Sandy. We experienced it up in the Northeast. And when the
hurricane came through, a lot of the licensed cellular networks
were down. So what would end up happening is that we had some
of our Wi-fi access points that were up and running, and people
would actually go to those access points. They would connect
with any of their devices. They didn't have to be cellular
specific. And they could actually reach the Internet. They
might have to walk a few hundred yards, because that is the
closest one that they had, or maybe even further. But just
having that connectivity was essential to those people who were
essentially without knowledge of what was going on and when
people were coming to help them.
    Mr. Butterfield. All right. Thank you. Mr. Chairman, since
I don't have 50 years on this committee, I won't ask unanimous
consent to extend my time. And so this will be my last
question. Mr. Kenney, what is your response--but I want you to
promise me that when I do get the years on this subcommittee, I
will have that deference.
    Mr. Walden. Let me suggest, Mr. Butterfield----
    Mr. Butterfield. Yes?
    Mr. Walden. I won't be here, unless there are incredible
medical advances.
    Ms. Eshoo. I am going to leave a note in the drawer----
    Mr. Walden. Yes. And you can go ahead and ask today, but
you probably wouldn't get anything.
    Mr. Butterfield. Thank you. Very quickly, Mr. Kenney, what
is your response to the proposal by Cisco that would require
Wi-fi devices to detect and avoid the presence of DSRC systems
on the channels that they wish to use?
    Mr. Kenney. We think that the Cisco detection proposal is a
sound foundation to build on. We think there are a lot of
unanswered questions about some of the technical details. But
we look forward to exploring that as part of our outreach with
the Wi-fi community.
    Mr. Butterfield. With the note in the drawer, I will yield
back. Thank you.
    Mr. Walden. The gentleman yields back. We welcome you to
the committee. We turn now to the gentleman from Illinois, Mr.
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. It is a good hearing.
I am really kind of learning a lot. It is a great committee. It
is just highly technologically focused for a lot of us. So this
is what I am getting out of the hearing so far, the gigabit Wi-
fi is the best, right? That the 5 gigahertz is the best band
for unlicensed use of Wi-fi, is that--Mr. Kenney and Mr.
Friday, you seem to think that the sharing aspect might work.
    And Mr. Friday thinks it is almost too late to propose
movement for this 10 year use of the automobile industry on
this ITS system at the upper band. You have the impression that
it is probably too late to go down that route, am I correct?
    Mr. Friday. I would say I don't know. I would say that the
ITS has been working on it for a long time. But no, I don't
know if it is too late or not. I just think it has been a
long--they have been down that path for quite a while.
    Mr. Shimkus. And, Mr. Kenney, I am sure you agree that you
like your spot and you want to keep it?
    Mr. Kenney. Yes. That is right. We think that the
allocation decisions that the FCC has made in the past make a
lot of sense.
    Mr. Shimkus. Mr. Nagel, do you want to chime in on this?
Because that seems what today is----
    Mr. Nagel. I do.
    Mr. Shimkus. You know----
    Mr. Nagel. I do want to chime in on it. I think it is an
important point. So, you know, we all see what is happening in
the broadband space is that we are struggling to keep up with
the spectrum demands of just people connecting, and the
economic value and innovation that that is bringing to the
country. That the spectrum allocation has been made in the
UNII-4 band was made long before any of this rapid growth
happened.
    Mr. Shimkus. It was when it was termed kind of a junk space
is what was mentioned earlier.
    Mr. Nagel. It was a junk space. No one quite knew what to
do with it. And so I think it is really important for us not to
think about is it too late, but what is the right thing for us
to do for both aspects of the American economy. One is clearly
we agree with the concept of vehicle to vehicle safety. I think
we would never want to do anything that would harm that. We
also know that the 75 megahertz is not going to be used wholly
for vehicle to vehicle safety. There are components of it that
are going to have other business aspects.
    The second thing we know through the recently released GAO
report is that it is decades before the capability of vehicle
to vehicle, sort of the full benefits, are going to be
realized, primarily because the life of the fleet requires it
to have this built in, you have to go in and have all the cars
off the road. There will be some benefits early on, but it will
be awhile. The other thing the GAO report states is that there
is significant components of this whole infrastructure that
are--they are sort of unknown. They are still in development.
The back office component, all the pieces. So when I look at
it, I see 75 megahertz of spectrum that we know Wi-fi can share
with them. We would want to protect the vehicle to vehicle. But
that the idea of having 75 underutilized spectrum probably
doesn't make great policy says long term. And yet there is--I
think what we would like to see is not a decision about whether
Cisco makes sense or not, that is one of the proposals, but
there are at least two proposals, maybe more. But we would like
to see really rolling our sleeves up, engineer to engineer,
with real compromise, trying to solve the problem of not how do
I just protect all the 75 megahertz of band, but how do I make
Wi-fi work within it and make it a viable business. And I
think--but also protect the safety issue within the band.
    Mr. Shimkus. And isn't in the--actually, I am visual too.
So I have been watching this the whole time we have been having
the hearing. So in the UNII-4, in the upper area, if there was
movement there, and they are not using all the 75, you do have
a big band there for the applications--the Wi-fi applications--
but isn't there also a better debate where then you don't have
the interference issue? Couldn't you engineer it so--we went
through a lot----
    Mr. Nagel. Yes, I think we went through the live square
debate. It is----
    Mr. Shimkus. Yes. Unfortunately, I don't want to go through
that again.
    Mr. Nagel. It is important to realize that what we are not
saying--Wi-fi is not intended to replace the incumbent. So the
idea has never been within any of these bands to say that
incumbent shouldn't use that space, let us move them. Wi-fi by
its nature is a sharing technology. It is meant to work within
the context of the fact that you have incumbents. And its
purpose is to not cause harmful interference. And where it
does, we have to work through some of the technical details. It
is the technical details that are required for us to sit down,
both between the Wi-fi and the ITS groups, and sit down and
design what is the right thing from the beginning, from sitting
here where we are before it gets so far down the road that we
have really underutilized spectrum which probably doesn't make
sense long term.
    Mr. Shimkus. Mr. Chairman, my time has expired. Thank you
very much.
    Mr. Walden. Thank you, gentleman. I will now turn to the
gentleman from Nebraska, Mr. Terry, for 5 minutes.
    Mr. Terry. Thank you. I appreciate this. Yes, that is a
very pretty chart. All the questions probably have already been
asked, but not everyone has asked them. So I am going to
continue. But, Mr. Kenney, why don't we go through on--it does
seem that they are saying, Mr. Nagel, Mr. Friday and Knapp that
there is room for both. I think reading between the lines, they
didn't say it, but maybe Mr. Nagel and Mr. Friday would say
they would love to have 100 percent of that band. But the
reality is it has been set aside for the auto industry. I
really like the idea of the vehicle to vehicle communications.
I do think that is going to save lives. I like that we are
getting into the 21st century in the automobile industry. That
is exciting.
    So you have concerns that if it is shared and there is
possibility of interference that that then creates safety
issues. And your vehicle to vehicle is not--communications is
not reliable, then it can actually make it more dangerous on
the road, not just safer. But with your thinking, it is going
to communicate and tell you to stop, and it is not
communicating, you are more likely to get into a wreck then. So
from the automobile perspective, is there room to share? Is
there danger posed in sharing?
    Mr. Kenney. Yes and yes. So with regard to is there room to
share, I think the--one way to think about that question is how
would sharing work. And without being too technical, I would
like to suggest that it be on a spatial basis. And that means
that in the roadways where the vehicles are, that is not where
the Wi-fi should be using 5.9 gigahertz. If there--there are
places where Wi-fi can use 5.9 gigahertz, in the living room
for entertainment purposes, or in a rural area where there
aren't cars driving by. And we think that that can probably be
quite fine. But we don't want to have a mom driving a car down
the road with kids in the backseat, and because she happens to
be driving by a coffee shop that is using Wi-fi, her collision
avoidance systems turns off and she isn't able to avoid a
collision that she otherwise could have, or because her kids
are playing some games in the backseat, whether their devices
are talking to each other using Wi-fi technology. That
shouldn't be using 5.9 gigahertz Wi-fi. That should use one of
the other bands.
    So there is room to share, more on a special basis. There
are places where it can work. There are places where it
shouldn't work.
    Mr. Terry. Well, is there concerns--again, getting to what
the chairman brought up at the beginning. If you are just using
the top of the band, and you are allowing the rest of the band
barely below that, is there going to be concerns about
interference?
    Mr. Kenney. Well, yes. Let me state very clearly that we
are not only going to be using the top of the band, and we are
not only going to be using--we are not only going to be able to
put our safety critical communication in the top of the band.
We have 75 megahertz, and we expect in the deployments----
    Mr. Terry. To use all of that?
    Mr. Kenney. To be using all of it, and all of those
channels will be carrying critical information. Not all the
information will be critical, but all the channels will have
critical information. So it is not possible to compress it into
1 or 2 channels.
    Mr. Terry. OK. Well, anybody--Mr. Nagel, Mr. Friday would
like to comment further or----
    Mr. Friday. No, I mean, we have been working very closely
with the ITS on the sharing. I mean, I think maybe Tom's point
was if we had started from scratch, and we had built sharing
into the original ITS design, would we have done something
slightly different? And I think working with the ITS though,
they have been very cooperative on trying to find, given where
we are, the right solution for sharing in the band.
    Mr. Terry. OK. Now, there was some comment made, not here
but before the meeting, that it is taking 10 years to get here,
and maybe the auto industry should have been built out by now.
I guess the conclusion to that, if you take it, is therefore
you should have to give it up. What do you think about that
thought, Mr. Kenney?
    Mr. Kenney. Yes, I think that the automotive industry isn't
consumer electronics. And when we are talking about safety of
life, one thing I have found since I have been working for
Toyota is that we take it very seriously and we are very
careful about deploying these technologies. So we now have the
benefit of that period of time of intensive research. We have
reached the threshold. We are ready to start deploying.
    Mr. Terry. All right. Thank you. My time is up.
    Mr. Walden. The gentleman's time has expired. We go now to
the gentleman from Missouri, Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. Mr. Kenney, when you see
these ads on TV with cars that, you know, they have you stop so
you don't get into an accident, or maybe 2 cars ahead of you it
tells you about an accident up there, now that is not the 5
gigahertz, is it that those rely on?
    Mr. Kenney. You are correct. Most of those types of
technologies that you see advertised today are based on sensor
systems that the car has, maybe it is a radar or a camera
system that can detect these dangerous situations.
    Mr. Long. So wouldn't that portend that you could share
these or not need those?
    Mr. Kenney. Well, we think that those technologies are
critical as well. We view the vehicle to vehicle communication
as complementary to that. There are limitations of those sensor
based systems. Their ranges are limited. Communication can go
further. If there is a vehicle in between you and the danger,
the sensor may not be able to see it, whereas communication can
let you know about it. If there is a vehicle coming----
    Mr. Long. So it could be used in that instance on the 5----
    Mr. Kenney. I am sorry?
    Mr. Long. The 5 gigahertz could be used in that instance?
    Mr. Kenney. Yes. Yes.
    Mr. Long. To prevent an accident?
    Mr. Kenney. So we think that the 5.9 gigahertz
communication and the sensor based systems on vehicles will
work together to give us a very safe driving experience.
    Mr. Long. But that is futuristic? That is not happening
now? They are not using that now?
    Mr. Kenney. The communication part is not yet deployed, but
that is coming very soon.
    Mr. Long. OK. And, Mr. Knapp, I have got a question
regarding the dedicated short range communications. My
constituents' privacy is real important to them. So for people
back in my district, do you think the FCC will propose
protections of an individual's privacy so car companies won't
be sending personalized advertisements to individuals based on
where their car is located?
    Mr. Knapp. So the Commission has provided the spectrum. The
standards are developed by the industry, including privacy
protections. And I think the GAO report had addressed the
importance--the need for the standards to address this. And I
know that the industry has been taking those things into
account. The FCC generally has not set standards specifically
for that.
    Mr. Long. That doesn't work unless they mandate that all
cars have this, is that correct, or----
    Mr. Knapp. So the technology contemplates communication
between vehicles. And so some of speculated that a percentage
of the vehicles would provide an added benefit. But the idea is
that eventually all of the vehicles would have this technology.
As compared to what we just heard described, the radars that
are built in, the car basically works autonomously. I don't
need to communicate or worry about whether something is
installed in somebody else's car.
    Mr. Long. OK. Mr. Chairman, I yield back.
    Mr. Walden. The gentleman yields back the balance of his
time. And I think that takes care of all our members and their
questions. I do have a unanimous consent request, a report from
SES and Intelsat, detailing interference concerns of satellite
providers in the 5.9 gigahertz band, and a GAO report by Mr.
Nagel that he referenced on the benefits and challenges of ITS.
So we would like to put it in the record without objection. So
ordered. \*\
---------------------------------------------------------------------------
    \*\ The information has been retained in committee files and is
also available at http://docs.house.gov/meetings/IF/IF16/20131113/
101359/HHRG-113-IF16-20131113-SD009.PDF and http://docs.house.gov/
meetings/IF/IF16/20131113/101359/HHRG-113-IF16-20131113-SD008.pdf.
---------------------------------------------------------------------------
    Ms. Eshoo. Mr. Chairman?
    Mr. Walden. Gentlelady from----
    Ms. Eshoo. I would just close out the hearing today by
saying thank you to Roger Sherman for his superb service here.
I really don't know what we are going to do without Roger. That
is how fabulous he really is. He is, I think in many ways, in a
class by himself, and I think that it is an eloquent statement
about him that the new chairman of the Federal Communications
Commission has chosen him, named him as the acting chief of the
FCC's Wireless Telecommunications Bureau. I don't know how many
members know his background. In the 111th Congress, Roger--he
began here. And he has really been the backbone of this
subcommittee. And he has led the staff in a way that really
brought out the best leadership qualities of everyone that was
part of the team. And I think that that is the mark of a
leader, and a confident leader. He has supported members and
staff on every issue we have tackled. He really has been the
indispensible person here. His strategic guidance, his
expertise, his professionalism are all going to be missed, I
think, by every member of the committee, and to our colleagues
here on the subcommittee on the other side of the aisle. I
think when we go to negotiate, you are going to miss Roger as
well.
    You may even be relieved that he is not there. But he is
not going to be far away. He is not going to be far away.
    Mr. Walden. That is right. We are going to subpoena him and
have him under oath now. And I have got several questions.
    Ms. Eshoo. Yes. So I have no doubt that Roger Sherman is
going to make extraordinary contributions at the FCC. We all
look forward to working with you in the new role, Roger. And
from a very deep respectful place, we salute you. You have
devoted yourself. You could make so much money outside of this
institution. But he has--he remains with it because he has such
a great commitment to it. And I think that that is a very
important story for the American people, because he is here to
help to create wins for our country. And I don't think there
could be any more beautiful commitment. And we need people like
you to continue on in public service. You have certainly
enhanced my and all of ours here. So we are going to miss you.
We thank you enormously. We thank you enormously for everything
that you have done. And I will never ever forget it. I am a
better legislator because of you. But more importantly, you
have made great contributions to the entire subcommittee and
the full committee. So God bless you. Go forward and do great
things at the FCC. And when things aren't working out, you are
going to be our point man. We are not letting you go. So, Mr.
Chairman----
    Mr. Walden. And remember----
    Ms. Eshoo. Thank you.
    Mr. Walden [continuing]. Remember that the FCC is an
offshoot of the Congress. And so never forget that either as
you go downtown.
    Ms. Eshoo. That is right. Yes. Yes. Thank you.
    Mr. Walden. How about a round of applause for Roger
Sherman?
    Ms. Eshoo. Thank you, Mr. Sherman.
    Mr. Walden. And on that happy and appropriate note, that
concludes our hearing. We thank our witnesses again for sharing
your comments with us, your testimony, your counsel and
guidance. And we stand adjourned.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you Mr. Chairman,
    I'm glad we are having this hearing to examine how the 5
GHz spectrum band can be used in the most effective way
possible. It is my goal to ensure that we are using our entire
spectrum in the most efficient way possible and to promote
advancement of both incumbent services and the myriad
unlicensed products and services that are becoming ubiquitous
in our daily lives.
    I think this Committee took the correct approach in
directing the FCC and NTIA to examine the possibility of
expanding the use of unlicensed devices in the 5 GHz bands as
long as they do not cause harmful interference to the incumbent
licensed operators already operating here. Much of this work
has been done and I look forward to its work formally being
finalized. There is a strong likelihood that we can make more
efficient use of this spectrum and allow continued innovation
of unlicensed devices using spectrum in this range without
unduly hamstringing the commercial and public safety incumbents
currently holding licenses.
    In recent years the innovation in devices making use of
unlicensed spectrum has been breathtaking. Wi-fi internet
access is no longer something restricted to our residences. The
wireless phone carriers are ``offloading'' data traffic to Wi-
fi hot spots at ever growing rates due to their own spectrum
crunch. There are fewer and fewer public places without
publically available Wi-fi. It has even been used to protect
public safety. In the aftermath of Hurricane Sandy Cable
companies opened their Wi-fi networks to first responders
aiding in communication during the recovery. Bluetooth
technology continues to advance, connecting us to our devices
and residences in more and more effective and innovative ways.
Remote controlled toys, wireless microphones, garage door
openers, cordless phones and other devices also use unlicensed
spectrum to operate.
    The band we are discussing today seems to be the logical
place to increase these products and services but we also must
take care not to foreclose completely the incumbent license
holders already making use of this band. There is innovative
and important research and development taking place by auto
companies and important services being provided by satellite
providers and radar operations already licensed here. It is
important that we find the right balance to ensure that these
services continue to operate as well.
    Qualcomm Research--located in my district in Bridgewater,
New Jersey--has a long history of innovation in wireless
systems, silicon design and infrastructure products. The
Bridgewater facility focuses on the development and design of
small cell networks, mobile ad hoc and device-to-device
communications, telematics and related wireless technologies.
    Engineers from Qualcomm Research in Bridgewater and other
Qualcomm facilities are working with NHTSA and the automobile
manufacturers at the renowned University of Michigan
Transportation Research Institute to ensure the rapid rollout
and proliferation of innovative and potentially life-saving
Dedicated Short Range Communications (DSRC) services in the 5.9
GHz band, specifically the 75 MHz from 5.850 to 5.925 GHz
allocated to DSRC.
    As we are progressing on DSRC, demand for Wi-fi continues
to grow exponentially. We all recognize that as a nation we
must be efficient in the way we allocate and utilize spectrum
and what made sense ten or twenty years ago no longer works. At
today's hearing we will hear from both Cisco and Comcast about
the need for additional spectrum to support Wi-fi. Cisco points
out that global mobile data increased 70 percent in just one
year from 2011 to 2012. I appreciate all that Cisco, Comcast,
Qualcomm and others are doing every day to advance Wi-fi
services for American consumers.
    The challenge we face as policymakers is to find a way to
advance both DSRC and Wi-fi. The FCC allocated the 75 MHz
between 5.850 and 5.925 GHz in 1999-long before Wi-fi was on
the horizon and when DSRC was in its infancy. Given rapid
technological advances since 1999, it is logical to ask whether
Wi-fi can share with DSRC on a secondary basis in a way that
accommodates both activities.
    In a May 28 filing with the FCC, Qualcomm stated that
sharing would place DSRC safety services at risk of harmful
interference. Qualcomm suggested a middle-ground alternative
under which the upper portion of the 75 MHz-20-30 MHz-would be
exclusively dedicated to DSRC so as to avoid any interference
problem, while allowing Wi-fi to share with DSRC in the
remaining spectrum on a secondary basis, but only if this
sharing works on a non-interfering basis.
    The Qualcomm proposal may not be the final answer to how to
reconcile DSRC and Wi-fi. However, the proposal does provide a
framework for discussion among all interested parties so that
their talented and dedicated engineers can develop a solution.
After all, virtually every American has a compelling interest
in better wireless communications.
    Thank you again for holding this important hearing.
                              ----------

[GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
